           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



          CONTROLS OVER
     MISCELLANEOUS PAYMENTS
          MADE THROUGH
    THE SINGLE PAYMENT SYSTEM

   October 2007   A-09-07-17119




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      October 25, 2007                                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Controls over Miscellaneous Payments Made Through the Single Payment System
           (A-09-07-17119)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA) had
           adequate controls over miscellaneous payments made through the Single Payment
           System (SPS).

           BACKGROUND

           SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
                                                       1
           under Title II of the Social Security Act. SSA generally provides monthly benefits to
           eligible individuals through its Title II system. However, certain types of payments that
           cannot be made through the Title II system are processed through SPS. For example,
                                                                             2
           SPS is used to pay death underpayments to non-beneficiaries when the payment due
           a beneficiary exceeds $29,999.99 or issue a returned Lump Sum Death Payment. SPS
           was designed to ensure the timeliness of these payments, stop duplicate and
           erroneous payments, and provide management information.

           Our audit included a review of the approximately $373 million in SPS death
           underpayments paid to 327,580 non-beneficiaries for the period July 1, 2002 through
           April 10, 2006. We also examined a population of 2,281 individuals who may have
           received duplicate SPS payments totaling $48.3 million during this period.




           1
               The Social Security Act §202, 42 U.S.C.§402 (2005).
           2
            A non-beneficiary is usually a family member who is eligible to receive a death underpayment but is
           otherwise not entitled to benefits.
Page 2 - The Commissioner

RESULTS OF REVIEW
We found that SSA's controls to prevent or detect improper or duplicate miscellaneous
payments were generally effective. However, SSA needs to improve its controls over
the retention of supporting documentation for miscellaneous SPS payments and the
recording of Social Security numbers (SSN) for SPS payments issued to non-
beneficiaries. Based on our review of a random sample of 275 death underpayments
from the population of 327,580 non-beneficiaries, we found that SSA

   improperly paid an estimated $7.3 million to 11,912 non-beneficiaries,

   did not retain adequate supporting documentation for an estimated $98 million in
    payments made to 50,030 non-beneficiaries (see Appendix C),

   did not obtain or record the SSNs for 176,029 (53 percent) of the 332,680 death
    underpayments issued to non-beneficiaries, and

   paid improper duplicate payments of $27,480 to 3 individuals.

Improper Death Underpayments Paid to Non-Beneficiaries

Death underpayments occur when beneficiaries die before they receive all benefits due
them or before they endorse a benefit check payable before the month of death. 3
Death underpayments are payable to relatives or the legal representatives of the
estates of deceased beneficiaries under the following order of priority established by
the Social Security Act.

1. A spouse who was living with the beneficiary at the time of death or a spouse
   entitled on the same earnings record at the time of death.
2. A child entitled on the same earnings record.
3. A parent entitled on the same earnings record of the deceased person.
4. A spouse not entitled on the same earnings record.
5. A child not entitled on the same earnings record.
6. A parent not entitled on the same earnings record.
7. A legal representative of the estate. 4
Based on our review of a random sample of 275 non-beneficiaries who were paid a
death underpayment, we found that SSA improperly paid $6,192 to 10 individuals.

3
  Benefits are only payable to beneficiaries for months in which they were alive for the entire month. See
the Social Security Act §202, 42 U.S.C.§402 (2005).
4
 The Social Security Act § 204 (d), 42 U.S.C.§404 (2005) and SSA, Program Operations Manual System
(POMS), GN 02301.030.
Page 3 - The Commissioner

Projecting our sample results to our population of 327,580 non-beneficiaries, we
estimate that SSA improperly paid $7.3 million to 11,912 non-beneficiaries (see
Appendix C). This occurred, in part, because SSA paid some individuals more than the
amount to which they were entitled, issued payments to individuals who were not
entitled or did not pay the full underpayment amount to entitled individuals.
    Incorrect Payment Amount Processed – According to the Social Security Act, 5 death
underpayments due to more than one individual in the same order of priority must be
divided equally. For example, if there are two children entitled to the payment, each
child must receive an equal share of the death underpayment. However, our audit
disclosed that SSA did not always pay the correct amount when two or more individuals
were entitled to a death underpayment. Specifically, we identified three non-
beneficiaries who were paid more than the amount due. This occurred, in part,
because SSA technicians incorrectly divided the underpayments among the entitled
non-beneficiaries or simply made payments for incorrect amounts. As a result, these
three individuals received $1,763 more than they were entitled.
   No Death Underpayment Due – We identified three individuals to whom SSA issued
$3,439 in death underpayments. However, in two cases, the payment was for the
month the beneficiary died and therefore was not a death underpayment payable to the
non-beneficiary. In the third case, SSA issued a payment that was incorrectly recorded
as a death underpayment. After the payment was issued, SSA determined it was not
due the beneficiary and recovered it.
    Individual Was Not Entitled – SSA improperly paid a death underpayment to
one individual who was not entitled to receive it. This occurred because an SSA
technician did not follow the priority order for payment of the underpayment. Instead of
paying the underpayment to the entitled child of the deceased beneficiary, SSA paid a
widow who was not living with the deceased. As a result, the widow received $570 to
which she was not entitled. SSA subsequently paid the death underpayment to the
child and established an overpayment for the widow. However, SSA terminated its
collection efforts for the overpayment.
    Outstanding Death Underpayments – Individuals who were qualified to receive
death underpayments did not always receive the full amount that was payable on behalf
of the deceased beneficiaries. Specifically, we determined that three non-beneficiaries
did not receive the full amount of the underpayment. This occurred because SSA did
not pay two individuals the amount of unnegotiated checks due a deceased beneficiary
and did not pay the entire underpayment amount due one individual. Consequently,
these three individuals did not receive $420 in payments to which they were entitled.




5
    The Social Security Act § 204 (d), 42 U.S.C.§404 (2005) and SSA, POMS GN 02301.030.
Page 4 - The Commissioner

Unsupported Death Underpayments

A written request for a death underpayment is not required if SSA’s records contain
sufficient information to determine the identities and current addresses of all persons
entitled to the underpayment. 6 Otherwise, a written request is required from at least
one person entitled to receive a portion of the underpayment. 7 The written request
must include (1) the applicant’s relationship to the deceased, (2) the names and
addresses of individuals in the highest order of priority for payment, (3) the applicant(s)
SSN (if they have one), and (4) whether the deceased had a surviving spouse living in
the same household at the time of death. SSA uses the application Form SSA-1724,
Claim for Amounts Due in the Case of a Deceased Beneficiary, to obtain this
information. 8 SSA requires that claims folders, either in electronic or paper form,
contain documentation that supports the underpayments issued to these individuals. 9
Specifically, SSA policy requires that staff retain a scanned copy of the Form SSA-1724
in SSA’s Paperless Processing Center System, which is a document imaging and
management system. After SSA determines the Form SSA-1724 image is clearly
                                                       10
readable, the original document may be destroyed.

We found that SSA did not have adequate paper or electronic documentation to
support 42 (15 percent) of the 275 death underpayments to non-beneficiaries.
Specifically, SSA had not obtained or retained the Form SSA-1724 or any other written
documentation to support the issuance of the death underpayments. In addition, there
was insufficient information in SSA’s records to determine the identities and addresses
of all persons entitled to the underpayment. As a result, we could not determine
whether $82,505 in payments to the 42 non-beneficiaries was paid to the correct
individual. Projecting our sample results to the population, we estimate that SSA did
not have adequate documentation to support $98 million in death underpayments paid
to 50,030 non-beneficiaries (see Appendix C).

For example, in one case, SSA paid an individual a death underpayment of $1,849. A
scanned image of the SSA-1724 was not in the Paperless Processing Center System.
In addition, we requested the claims folder to determine whether the Form SSA-1724 or
any other documentation existed to support the individual’s entitlement to the
underpayment. Unfortunately, the claims folder had been destroyed. We also found
that the payment was issued without an SSN, which prevented us from determining the
identity or the relationship between the non-beneficiary and the deceased beneficiary.



6
    SSA, POMS, GN 02301.050.
7
    SSA, POMS, GN 02301.050.
8
    SSA, POMS, GN 02301.050.
9
    SSA, POMS, GN 01070.550.
10
     SSA, POMS, GN 01085.030.
Page 5 - The Commissioner

Underpayments Processed Without the Recipient’s Social Security Number

SSA procedures require that individuals provide an SSN on applications for a death
underpayment unless they do not have an SSN. Generally, individuals requesting
                                               11
death underpayments use the Form SSA-1724. Although this Form includes a field
for the SSN, our review of the SPS input screen used by SSA technicians to process
miscellaneous payments disclosed that the SSN field is optional. SSA technicians can
bypass the field and process payments without the SSN.

In our July 2004 audit of Title II Underpayments for Deceased Beneficiaries, we found
that 51 percent of death underpayments were issued without an SSN. At that time,
SSA policy did not require the collection of an SSN to pay a death underpayment. In
response to our report, in January 2005, SSA revised its procedures to require an SSN
                                 12
if the non-beneficiary had one.

To assess the effectiveness of SSA’s policy change to require an SSN, we analyzed the
SPS death underpayments made from July 2002 through December 2004 and from
January 2005 through April 10, 2006. Although SSA’s policy has resulted in a slight
improvement in the collection and recording of SSNs for SPS payments, we found SSA
continues to issue SPS payments without recording the recipients’ SSNs (see table
below).

                                   July 2002     January 2005         July 2002
                                   Through         Through             Through
         SPS Payment            December 2004    April 10, 2006      April 10, 2006

 Issued Without an SSN             118,489          57,540              176,029

 Issued with an SSN                 93,772          62,879              156,651

 Total Payments                    212,261          120,419             332,680
 Percent of Payments
 Issued Without an SSN                56              48                   53

SSA is required to provide the SSN on the Social Security Benefit Statement
(SSA-1099) to notify recipients as well as the Internal Revenue Service of SSA benefits
                                                         13
received during the year that are subject to income tax. However, when SSA does
not include the SSN on the SPS payment, the SSA-1099 will not contain the recipient’s
SSN. Consequently, SSA did not provide the Internal Revenue Service with needed
SSNs for 176,029 individuals who received $209 million in payments that are subject to
income tax.
11
     SSA, POMS, GN 02301.050.
12
     SSA, POMS, GN 02301.050.
13
     SSA, POMS, GN 05001.005 and OS 15010.525.
Page 6 - The Commissioner

    SSNs Were Obtained – We found that SSA obtained or already had the SSN for
many of the individuals who received a death underpayment. From our sample of
275 cases, SSA issued 88 payments after it changed its policy to require an SSN. Of
these, we found that SSA issued 43 payments without including the SSN; however, we
were able to locate the SSN for 17 (40 percent) of the payments. We found that
15 individuals provided their SSN on the SSA-1724 or as an attachment to the Form,
and 2 individuals’ SSNs were in the claim folders. For example, in one case, the
surviving spouse of the deceased beneficiary completed and submitted a SSA-1724 to
claim an $11,411 death underpayment. The widow included her SSN on the
SSA-1724. However, when the payment was processed through SPS, the SSA
technician did not enter it in the SSN field.

Improper Duplicate Payments

SPS was created, in part, to reduce duplicate and erroneous payments. To do this,
SPS creates systems alerts that warn technicians of potential problems with a particular
                 14
payment action. For example, SPS will generate a systems alert if a potential
payment action could result in a duplicate payment. According to SSA policy, the
technician is required to review the Payment History Update System, which records all
                                                             15
SPS payments, prior to initiating the alerted payment action. However, SSA
technicians can override the SPS alerts and process the payment without providing an
explanation or obtaining supervisory approval.

We identified a population of 2,281 individuals who may have received duplicate
payments from July 2002 through April 10, 2006. These individuals received at least
two payments issued for the same reason and for the same amount. Based on a
random sample of 100 of these payments, we found that SSA improperly issued
duplicate payments totaling $27,480 to 3 individuals.

Our review disclosed that SSA controls did not always prevent improper duplicate
payments through SPS. Specifically, based on our review of SSA records, we
determined that technicians improperly overrode alerts that a pending payment action
could result in a duplicate payment. In these cases, a review of Payment History
Update System would have revealed that the pending payment was a duplicate. For
example, one individual received four payments issued via both the Title II system and
SPS. Consequently, this individual was improperly paid $26,053.




14
     SSA, Modernized Systems Operations Manual, Special Payment System 001.017.
15
     SSA, POMS, SM 00834.001.
Page 7 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
We found that SSA's controls to prevent or detect improper or duplicate miscellaneous
payments were generally effective. However, SSA needs to improve its controls over
the retention of supporting documentation for miscellaneous SPS payments and the
recording of Social Security numbers for SPS payments issued to non-beneficiaries.
Specifically, our review identified an estimated $7.3 million in improper payments to
11,912 non-beneficiaries and unsupported payments of $98 million to
50,030 non-beneficiaries. We also found that SSA needs to improve controls to
ensure SSNs are properly recorded on SPS payments, and to prevent improper
duplicate payments.

We recommend that SSA:

1. Take corrective actions on the improper and duplicate SPS payments identified by
   our audit.

2. Remind staff of the proper procedures to follow when determining underpayment
   amounts payable to non-beneficiaries.

3. Establish an appropriate control to ensure the SSA-1724 or other written application
   for a death underpayment is retained.

4. Establish a SPS alert for all instances in which a SSN is not recorded for non-
   beneficiaries.

5. Remind staff to review Payment History Update System to identify and prevent
   improper duplicate SPS payments.

AGENCY COMMENTS

SSA agreed with all our recommendations. See Appendix D for the full text of SSA’s
comments.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                          Appendix A

Acronyms
POMS   Program Operations Manual System
SPS    Single Payment System
SSA    Social Security Administration
SSN    Social Security Number
                                                                       Appendix B

Scope and Methodology
We obtained a file containing information on payments issued through the Social
Security Administration’s (SSA) Single Payment System (SPS) between July 1, 2002
and April 10, 2006. From this file, we identified two populations. The first population
consisted of 327,580 individuals who were issued death underpayments, and the
second population consisted of 2,281 individuals who may have received duplicate
payments. We randomly selected a sample of 275 individuals from the first population
and 100 individuals from the second population.

To achieve our objective, we

•   reviewed the applicable sections of the Social Security Act, U.S. Code, and SSA’s
    Program Operations Manual system;

•   interviewed SSA employees from the Western Program Service Center and the
    Office of Retirement and Survivors Insurance Systems;

•   reviewed prior Office of the Inspector General audit reports pertaining to death
    underpayments;

•   reviewed actions SSA took to address recommendations from the prior report;

•   obtained necessary files from the Master Beneficiary Record and Payment History
    Update System;

•   reviewed SSA’s paperless system for supporting documentation; and

•   obtained and reviewed case folders as needed.

We verified the payment information contained in SPS against the Payment History
Update System. For each death underpayment reviewed, we determined whether
adequate documentation existed to support the payment and whether SSA complied
with its policies and procedures for issuing the payment. For each potential duplicate
payment reviewed, we reviewed SSA’s records to assess the validity of the payments.
Based on this analysis, we determined the number and amount of improper and
unsupported payments made through SPS.

We determined the computer-processed data were sufficiently reliable to achieve our
audit objective. We performed our work in Richmond, California, and Baltimore,
Maryland, between December 2006 and May 2007. The entity audited was the Office
of the Deputy Commissioner for Operations. We conducted our audit in accordance
with generally accepted government auditing standards.
                                                                        Appendix C

Sampling Methodology and Results
We obtained a file containing information on payments issued through the Social
Security Administration’s (SSA) Single Payment System between July 1, 2002 and
April 10, 2006. From this file, we identified two populations. The populations consisted
of individuals who received death underpayments and individuals likely to have received
duplicate payments.

We identified a population of 327,580 individuals who received death underpayments.
We randomly selected 275 individuals to determine whether SSA complied with its
policies and procedures for the payment of death underpayments to non-beneficiaries.

Based on a random sample of 275 individuals who received death underpayments from
July 1, 2002 through April 10, 2006, we found that SSA improperly paid $6,192 in
payments to 10 individuals on behalf of deceased beneficiaries. We also found that
SSA did not retain adequate documentation to support about $83,000 in payments
made to 42 individuals who received death underpayments. Projecting these results to
our population of 327,580 individuals, we estimate that SSA paid about $7.3 million in
improper payments to 11,912 individuals and $98 million in unsupported payments to
50,030 individuals. The following tables provide the details of our sample results and
statistical projections.

Table 1 – Improper Payments


          Projection                Number of Errors                    Amount
Sample Results                                         10                            $6,192
Point Estimate                                     11,912                        $7,376,351
Lower Limit                                         6,508                        $1,864,344
Upper Limit                                        19,946                       $12,888,358

Table 2 – Unsupported Payments


          Projection                 Number of Errors                   Amount
Sample Results                                          42                          $82,505
Point Estimate                                      50,030                      $98,280,016
Lower Limit                                         38,711                      $31,726,705
Upper Limit                                         63,221                     $164,833,327

All statistical projections are reported at the 90-percent confidence level.
                  Appendix D

Agency Comments
D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “CONTROLS OVER MISCELLANEOUS PAYMENTS MADE USING THE
SOCIAL SECURITY ADMINISTRATION'S SINGLE PAYMENT SYSTEM" (A-09-07-
17119)


Thank you for the opportunity to review and comment on the draft report. Our responses to the
specific recommendations are provided below.

Recommendation 1

Take corrective actions on the improper and duplicate Single Payment System (SPS) payments
identified by our audit.

Response

We agree. We will take corrective actions as resources permit.

Recommendation 2

Remind staff of the proper procedures to follow when determining underpayment amounts
payable to non-beneficiaries.

Response

We agree. While some regions have already issued processing reminders, we will issue a
national reminder by the end of calendar year 2007 for determining the underpayment amounts
payable to non-beneficiaries.

Recommendation 3

Establish an appropriate control to ensure the SSA-1724 or other written application for a death
underpayment is retained.

Response

We agree. We will explore appropriate controls to ensure retention of documentation for death
underpayments. We will establish appropriate controls as resources permit.

Recommendation 4

Establish a SPS alert for all instances in which a Social Security number (SSN) is not recorded
for non-beneficiaries.

Response

We agree in principle. However, changes to systems would involve additional resources beyond
what is currently available to process this workload. National reminders will assist staff in
identifying instances in which an SSN is not recorded for non-beneficiaries.

                                                 D-2
Recommendation 5

Remind staff to review Payment History Update System (PHUS) to identify and prevent
improper duplicate SPS payments.

Response

We agree. We will issue a reminder to review the PHUS to identify and prevent improper
duplicate SPS payments by the end of calendar year 2007.




                                            D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Joseph Robleto, Audit Manager, (510) 970-1737

Acknowledgments

In addition to those named above:

   Regina Finley, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-07-17119.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
